        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
Management Controls over the
Department's WinSAGA System for
Energy Grants Management Under
the Recovery Act




OAS-RA-10-05                          March 2010
                                    Department of Energy
                                    Washington, DC 20585

                                         March 25, 2010


MEMORANDUM FOR THE ASSISTANT SECRETARY, ENERGY EFFICIENCY AND
               RENEWABLE ENERGY


FROM:                     Rickey R. Hass
                          Deputy Inspector General for Audit Services
                          Office of Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Management Controls over the
                          Department's WinSAGA System for Energy Grants Management Under
                          the Recovery Act"

BACKGROUND

As a result of the American Recovery and Reinvestment Act of 2009 (Recovery Act), the
Department of Energy (Department) received $8.1 billion for formula grant programs supporting
housing weatherization and energy efficiency. This amount is significantly larger than the
approximately $300 million historically received each year for such purposes. To help control
performance, the Department established an incremental approach to awarding funding to states,
releasing funds based on performance. To aid in making incremental funding decisions, the
Department intends to track recipients' performance through the Windows System Approach to
Grants Administration (WinSAGA). WinSAGA, a custom-designed information system, is
utilized by the Department and more than 70 state-level program offices to collect, organize,
distribute, and report a wide array of information relating to the energy formula grant programs.
According to WinSAGA security documentation, the system and the information it houses
requires enhanced protection measures to help ensure, among other things, that confidentiality is
properly maintained.

WinSAGA is now being utilized by the Department to manage grants and fulfill certain
Recovery Act reporting requirements. In addition, WinSAGA is used by state-level program
offices and the Department to apply for and manage the grants awarded under the Recovery Act
for the State Energy and Weatherization Assistance Programs. Because of WinSAGA's role in
reporting on and managing Recovery Act related awards, we initiated this audit to determine
whether current system resources and controls were adequate.

RESULTS OF AUDIT

In general, WinSAGA, as currently configured, appeared to be capable of processing the
additional formula grant transactions resulting from the Recovery Act. We did, however,
identify certain security concerns with the system that could increase the risk of compromise of
grant data. Specifically:

   •   Controls over system access were not appropriate, including assigning excessive user
       access privileges and inadequate password complexity. These practices were contrary to
       Federal and/or Departmental requirements and could have allowed unauthorized changes
       to be made to grant data;
                                               2

       Appropriate system backup and recovery procedures had not been implemented,
       including the storage of sensitive system information in an unsecured location and
       insufficient testing to ensure that the system could be restored in the event of a
       disruption; and,

       Security planning documentation and control testing were incomplete and contained
       several inconsistencies. For example, the information contained in the system security
       plan was not representative of the entire computing environment and testing of the
       system excluded a significant portion of required security controls.

The issues we identified were due, at least in part, to inadequate communication and
implementation of required cyber security policies by Headquarters and state officials. In
particular, we noted that responsibility for communicating cyber security requirements to system
administrators and users had either not been assigned or had not been met. In addition, the
approach used to ensure that corrective actions adequately addressed security weaknesses was
not always effective. While we found no evidence of compromise, without improvement
WinSAGA, and the information it maintains, could be exposed to a higher than necessary level
of risk of compromise, loss, modification, and non-availability.

In an effort to meet increasing security requirements, a web-based replacement system,
Performance and Accountability for Grants in Energy (PAGE), is under development. This
system will completely replace WinSAGA and was planned for initial implementation in June
2009 with functionality for the State Energy and Weatherization Assistance Programs
maintained in WinSAGA being available by December 2009. At that time, it was expected that
WinSAGA would be decommissioned. Officials recently announced, however, that it is likely
this functionality will not be available in PAGE until at least the middle of Fiscal Year 2010.
The Office of Energy Efficiency and Renewable Energy noted that PAGE will utilize many of
the same managerial controls as WinSAGA and be managed by the same contractor. The new
system will incorporate all existing WinSAGA data and will also be used to manage additional
grants made available through the $3.2 billion Recovery Act Energy Efficiency and
Conservation Block Grant program. In light of the uncertainty surrounding the timing of the
transition to PAGE and the importance of the data currently maintained in WinSAGA, action is
needed to address existing system weaknesses. Further, management needs to ensure that the
same or similar issues do not develop during the design and transition to PAGE. To address
these issues, we have made several recommendations which, if fully implemented, should help
improve the security posture of the energy grant management systems.

MANAGEMENT REACTION

Management generally concurred with the recommendations and indicated that steps were being
taken to address many of the issues identified in our report. Management also commented that it
will work to ensure that the weaknesses noted in our report are addressed as part of the
implementation of PAGE. Management's comments are included in their entirety in Appendix 3
                                       3

Attachment

cc: Deputy Secretary
    Under Secretary of Energy
    Chief of Staff
    Chief Financial Officer
    Acting Chief Information Officer
REPORT ON MANAGEMENT CONTROLS OVER THE
DEPARTMENT'S WINSAGA SYSTEM FOR ENERGY GRANTS
MANAGEMENT UNDER THE RECOVERY ACT

TABLE OF
CONTENTS

Energy Grant Management System Controls

Details of Finding ................................................................................................................1

Recommendations and Comments .......................................................................................7


Appendices

1.    Objective, Scope, and Methodology ..........................................................................11

2.    Related Reports ..........................................................................................................13

3.    Management Comments .............................................................................................15
Management Controls over the Department's WinSAGA System
for Energy Grants Management Under the Recovery Act

Energy Grant          We found that, as currently configured, the Windows System
Management System     Approach to Grants Administration (WinSAGA) system
Controls              appeared to possess sufficient capacity for processing
                      additional formula grant transactions resulting from the
                      American Recovery and Reinvestment Act of 2009 (Recovery
                      Act). However, we identified a number of instances where
                      system security controls may not be completely effective.
                      Specifically, we noted certain weaknesses related to system
                      access, system backup and recovery, and security
                      documentation and control testing that could adversely affect
                      the overall reliability, confidentiality, and availability of the
                      system and the information it maintained.

                      Office of Energy Efficiency and Renewable Energy (EERE)
                      officials assessed WinSAGA as a moderate impact system in
                      accordance with Federal guidelines where the loss of
                      confidentiality, integrity, or availability could be expected to
                      have a serious adverse effect on organizational operations,
                      assets, or individuals. Program officials indicated that its
                      replacement system – Performance and Accountability for
                      Grants in Energy (PAGE) – is anticipated to have the same risk
                      level and would contain security controls similar to WinSAGA.
                      Therefore, if the issues identified in our report are not
                      adequately considered and fully addressed, PAGE may also not
                      have the protection measures necessary to ensure overall
                      reliability, confidentiality, and availability of the system and
                      the information that it will maintain.

                                               System Access

                      We identified weaknesses in a number of access control areas
                      for WinSAGA. Access controls consist of both physical and
                      logical measures designed to protect information resources
                      from unauthorized modification, loss, or disclosure. Proper
                      implementation of such controls is necessary to reduce the
                      overall risk to the system. We found, however, that:

                           Although the National Institute of Standards and
                           Technology (NIST) required that users be given the
                           lowest level of access to the system that is required to
                           perform their duties, user access privileges were not
                           always consistently assigned and based on user need.
                           Specifically, we found that more than 40 of 70 state-level
                           program offices reviewed granted the highest level of
                           available access privileges. Within these offices, we


___________________________________________________________________
Page 1                                               Details of Finding
                           determined that almost half of the active users had been
                           assigned such privileges to the system's primary modules.
                           In contrast, 20 of the 70 state-level program offices did
                           not assign this level of access to any users. Furthermore,
                           this practice was contrary to the WinSAGA system
                           security plan which directed that users be provided
                           system access based on the principle of "least privilege."
                           Granting users privileges in excess of those needed could
                           allow unauthorized modifications to system information
                           and permit users to modify performance data – actions
                           that could ultimately impact funding decisions. Since
                           WinSAGA does not log such modifications, officials
                           would likely not be able to identify the source of
                           unauthorized modifications. In response to our draft
                           report, management stated that it had initiated action to
                           review and adjust system user accounts to ensure that all
                           users' access levels were limited to those needed to
                           perform their job duties.

                           The password change configuration process for
                           WinSAGA was insufficient for a moderate risk system.
                           In particular, although the Energy Program Cyber
                           Security Plan (PCSP) required user account passwords to
                           be changed at least every six months, the WinSAGA
                           system security plan only required passwords to be
                           changed after 500 logins. Based on this information, we
                           estimated that a user would have needed to log into the
                           system an average of four times a day to reach the 500
                           login threshold within a six month period. If a user had
                           logged into the system just once a day, it would have
                           taken almost two years to meet the program requirement
                           for a password change. Three users we spoke with
                           disclosed that they had never changed their passwords.
                           When passwords are not regularly changed, the risk of an
                           undetected system compromise through the use of various
                           techniques to obtain and/or guess users' passwords
                           increases substantially. Management indicated in its
                           comments to our report that, as a result of our review, it
                           had implemented a process that required passwords to be
                           reset after 183 days.

                           A previously identified weakness related to password
                           complexity had not been fully resolved. Specifically, in
                           2007, EERE management directed that a configuration
                           change be made to enforce complexity requirements for
                           passwords associated with WinSAGA user accounts.

___________________________________________________________________
Page 2                                               Details of Finding
                           This change was made to the Headquarters' servers via
                           settings within the operating system and reported as
                           corrected or closed in the system's Plan of Action and
                           Milestones (POA&M), a tool used by management to
                           track and monitor the progress of cyber security
                           corrective actions. However, the change for enforcing
                           authentication requirements through the application was
                           not validated on servers at the state level, thus leaving the
                           state-level servers – computers that contain the vast
                           majority of the WinSAGA system infrastructure –
                           potentially vulnerable to compromise. Program officials
                           noted that they had taken action to resolve this issue after
                           our fieldwork was completed.

                                       System Backup and Recovery

                      Contrary to Federal and Department of Energy (Department)
                      requirements, appropriate system backup and recovery
                      procedures had not been implemented for WinSAGA. NIST
                      and Department directives require that information backups for
                      moderate risk systems be properly secured and stored in a
                      location that is geographically separate from the primary
                      processing facility. Although the backups should have been
                      moved from the system and secured in a timely manner, we
                      noted that the files were retained on the system for an extended
                      period before being moved to a portable device and stored at
                      the system administrator's residence. This weakness was
                      identified at the time of security testing and certification of the
                      system for operation in July 2007. However, even though
                      system officials had committed to correcting the deficiency at
                      that time, our review identified that it had not been resolved.
                      In response to our draft report, management stated that
                      alternative storage arrangements had been made to ensure that
                      system backups were properly secured.

                      In addition, annual testing of WinSAGA's contingency plan did
                      not ensure the timely recovery of information and system
                      operations in the case of service disruption. Contrary to
                      requirements in the Energy PCSP, the contingency plan and the
                      methodology utilized in the plan testing for Fiscal Year 2008
                      disclosed that a live recovery was not performed. Furthermore,
                      the scope of the testing performed was limited to the main
                      application servers at Headquarters, excluded testing of other
                      servers that were part of the system, and involved a scenario
                      not requiring plan activation. In addition, eight weaknesses
                      identified as a result of testing in July 2008 were not included

___________________________________________________________________
Page 3                                               Details of Finding
                      in the POA&M to ensure that they could be effectively tracked
                      and resolved. Even though management commented that these
                      items had been closed in the POA&M, we noted that the
                      weaknesses still had not been fully addressed at the time of our
                      review.

                                    Security Documentation and Testing

                      Security planning documentation and control testing for
                      WinSAGA was incomplete and contained several
                      inconsistencies. For example, the system security plan was not
                      representative of the entire computing environment – only
                      including the main Headquarters servers and excluding the
                      servers used by the 70 state-level program offices. Therefore,
                      security control testing designed to support management's
                      decision to authorize the system to operate and accept the risk
                      of such operation was only conducted on the servers located at
                      Headquarters. Testing was not performed on the state-level
                      servers to ensure that the required controls were in place and
                      operating as expected. EERE officials stated that the decision
                      to limit the scope of testing on the WinSAGA system was
                      initially made in 2004 because the system was scheduled to be
                      decommissioned. However, this did not occur and the
                      limitation was carried forward when the system was tested
                      again in 2007. By limiting the scope of testing on the system,
                      EERE essentially reduced the system's boundary and could not
                      sufficiently attest to the security of the state level servers. Had
                      testing on the state level servers been completed, security
                      vulnerabilities such as weak passwords could have been
                      identified and remediated.

                      Our analysis of the System Security Plan found that it excluded
                      16 percent of the security controls and control enhancements
                      that were required by NIST for a moderate risk system. For
                      example, several controls related to the areas of system access,
                      audit and accountability, and system and communications
                      protection had not been addressed. Furthermore, where testing
                      was completed on the Headquarters level servers, almost ten
                      percent of the control test results were inconsistent with the
                      results reported in the system security plan. For example, we
                      identified 13 controls for which testing results had been
                      documented in the Security Assessment Report as being
                      implemented even though the System Security Plan indicated –
                      sometimes erroneously – that these controls were not
                      applicable to the WinSAGA environment.



___________________________________________________________________
Page 4                                               Details of Finding
Communication and     The issues we identified were due, at least in part, to
Performance           inadequate communication and implementation of required
Monitoring            cyber security policies by Headquarters and state officials. In
                      particular, we noted that specific responsibility for
                      communicating cyber security requirements to system
                      administrators and users had not been assigned for the system
                      by EERE. In addition, the method and approach used to
                      validate corrective actions taken to close POA&M items was
                      not always effective.

                                Communication of Security Requirements

                      EERE officials had not ensured that responsibility was
                      assigned for communicating all cyber security requirements to
                      the Information System Security Officer (ISSO) – the
                      individual responsible for ensuring security of the information
                      system – and system users. Specifically, the EERE Cyber
                      Security Program Manager was the only official assigned
                      responsibility for security over the program's systems.
                      However, the Energy PCSP disclosed that the responsibilities
                      of this position focus on the overall management of the cyber
                      security program rather than ensuring that requirements are
                      implemented on specific systems. Our review found that no
                      one within EERE had been assigned the responsibility of
                      ensuring that system specific requirements were properly
                      communicated to the system ISSO. Thus, although NIST
                      required that system accounts be reviewed at least annually to
                      determine whether they remain valid, officials had not ensured
                      that periodic access reviews were completed so that users who
                      no longer had a valid need to access the system were denied
                      access to the system. We also found that WinSAGA's audit
                      event logs were not periodically reviewed for inappropriate or
                      unusual activity as required by NIST. Further, because system-
                      level responsibility had not been assigned by the program,
                      weaknesses related to contingency planning identified after the
                      system was authorized to operate were not recorded in the
                      POA&M as noted previously in our report.

                      The WinSAGA ISSO also had not ensured that the system's
                      security requirements were fully communicated to all users.
                      Even though the system's security documentation contained
                      requirements with which all users were expected to comply,
                      officials from all seven state-level offices contacted disclosed
                      that the system security requirements had not been shared with




___________________________________________________________________
Page 5                                               Details of Finding
                        them. They also indicated that they had not been contacted at
                        any time regarding security control implementation, such as
                        password complexity, user access, and audit log review.

                                   Plan of Action and Milestones Validation

                        We also noted that the method and approach used to validate
                        corrective actions taken to close POA&M items was not
                        always effective. During our review, we observed that security
                        weaknesses existed even though the program reported them as
                        corrected and closed. For instance, although reported as being
                        fully remediated prior to our audit, corrective actions related to
                        password configuration complexity weaknesses were not taken
                        until we brought the issue to management's attention during our
                        review. In addition, a weakness related to the appropriate
                        storage of backups for WinSAGA still existed at the time of
                        our review. These issues are similar to those noted in our
                        evaluation report on The Department's Unclassified Cyber
                        Security Program – 2008 (DOE/IG-0801, September 2008),
                        which identified weaknesses throughout the Department related
                        to the utilization of POA&Ms for tracking and correcting all
                        known cyber security weaknesses. In response to our
                        recommendation, EERE management reported that it properly
                        utilized the POA&M to track the remediation of identified
                        cyber security issues. However, based on our review, we noted
                        that additional improvements are needed in the EERE POA&M
                        process.

Risk to Systems and     Without improvements, WinSAGA, and the information it
Sensitive Information   maintains, may be exposed to a higher than necessary level of
                        risk of compromise, loss, modification, and non-availability.
                        For instance, system access weaknesses could be exploited to
                        either favorably or unfavorably modify performance results.
                        Because Recovery Act funds for the State Energy and
                        Weatherization Assistance Programs are being awarded in
                        increments, such modifications could impact future funding
                        decisions. Since future award decisions will be made based on
                        the states' performance with currently awarded funds, the data
                        within WinSAGA and its successor system, PAGE, must be
                        reliable to ensure that decisions related to the timing and
                        amount of future awards are not based on flawed data.
                        Furthermore, inadequate system recovery procedures could
                        impact the availability of data at key mission-related decision
                        points. For instance, weak backup and recovery procedures




___________________________________________________________________
Page 6                                               Details of Finding
                     could result in the loss of data which may significantly impact
                     EERE's and the states' ability to meet quarterly reporting
                     requirements under the Recovery Act.

                     As previously noted, WinSAGA is scheduled to be replaced by
                     PAGE. Because both systems have been identified as
                     moderate impact systems, EERE officials noted that PAGE is
                     expected to have a similar control structure to that of
                     WinSAGA. While program officials stated that there was a
                     lack of reportable security incidents or unscheduled outages
                     involving WinSAGA, we noted that the WinSAGA system had
                     limited network connectivity and, as such, was isolated from
                     many types of external attacks. However, its replacement
                     system, PAGE, will be accessed over the Internet and,
                     therefore, will inherently encounter more security
                     vulnerabilities and threats.

                     As a result, the continuation of current practices, especially
                     those noted in our report, could be detrimental to the
                     management of the state-level energy formula grant programs,
                     as well as the Energy Efficiency and Conservation Block Grant
                     program involving local municipalities, both of which will
                     utilize PAGE. In addition, because PAGE will be a custom-
                     built web-based application that is accessed over the Internet,
                     properly securing it takes on a greater level of importance. As
                     previously reported in our report on Management of the
                     Department's Publicly Accessible Websites (DOE/IG-0789,
                     March 2008), web-based applications were cited by industry
                     experts as being particularly vulnerable to exploit.
                     Furthermore, industry experts recently reported that 60 percent
                     of successful Internet attacks were launched against web
                     applications, the vast majority of which were custom built.
                     Absent corrective action, it may be difficult to ensure that
                     PAGE is adequately protected. In responding to our draft
                     report, program officials stated that they would address issues
                     identified with WinSAGA and take action to ensure that
                     similar weaknesses are addressed during the development of
                     PAGE.

RECOMMENDATIONS      To improve the effective and secure management of the
                     Department's energy grant management applications, we
                     recommend that the Assistant Secretary for Energy Efficiency
                     and Renewable Energy ensure that:

                        1. Responsibility is assigned to an appropriate individual
                           to ensure that cyber security policies and practices are

___________________________________________________________________
Page 7                                 Recommendations and Comments
                            properly communicated to the ISSO and state-level
                            program offices in accordance with Federal and
                            Department requirements for WinSAGA and its
                            successor system, PAGE;

                        2. Corrective actions taken to address security weaknesses
                           are appropriately tracked and validated prior to closing
                           POA&M items; and,

                        3. Existing weaknesses in WinSAGA are resolved to the
                           extent practical and appropriate based on the system's
                           anticipated retirement date.

MANAGEMENT           Management generally concurred with the recommendations
REACTION             and indicated that steps were being taken to address many of
                     the issues identified in the report. However, management
                     expressed concerns with several of the assertions made in our
                     report. We have addressed management's concerns below and
                     made technical changes to the report, as appropriate.
                     Management's comments are included in their entirety in
                     Appendix 3.

                     Management disclosed that the EERE Cyber Security Program
                     Manager lacked sufficient staffing to ensure separation of
                     duties with the Cyber Security Program. However,
                     management believed that the limited scale of the Cyber
                     Security Program allowed it to operate without the
                     recommended segregation of duties and principle of least
                     privilege implemented. In addition, management indicated that
                     it would design and implement a new POA&M management
                     process for all Headquarters systems, including WinSAGA and
                     PAGE. Furthermore, management commented that it had
                     made the decision to limit the scope of the certification and
                     accreditation process and focus on critical cyber security
                     updates, noting that WinSAGA will be decommissioned in
                     June 2010 and proper security controls will be implemented on
                     the PAGE system.

                     Management commented that annual contingency plan testing
                     was conducted in accordance with the Under Secretary of
                     Energy PCSP. According to management, this document
                     permitted moderate level systems to undergo testing using
                     tabletop exercises. To that end, management stated that it
                     would continue to utilize tabletop testing on both the
                     WinSAGA and PAGE systems.



___________________________________________________________________
Page 8                                                    Comments
                     Management commented that security control testing was
                     limited to only the Headquarters servers to allow a manageable
                     scope for the effort. Specifically, the decision was made in
                     2004 not to include the 70 state-level offices in testing due to
                     limited resources and the expectation that the system would be
                     replaced in the near future. Management noted that PAGE will
                     have a less distributed architecture and testing for that system
                     will encompass all components of the system.

                     Furthermore, management disclosed that the most recent
                     system certification, which took place in 2007, was conducted
                     prior to the issuance of the initial version of the Under
                     Secretary of Energy PCSP. Therefore, many of the
                     requirements currently addressed within that document are not
                     covered by the WinSAGA security plan. In addition,
                     management indicated that some of the security controls we
                     noted as being excluded in our report were identified as 'Not
                     Applicable' in the system security plan.

AUDITORS             Management's comments are responsive to our
COMMENTS             recommendations. However, we continue to believe that issues
                     related to system backup and recovery, as well as security
                     control documentation and testing, remain valid concerns.
                     Furthermore, we agree that WinSAGA will be decommissioned
                     and that major modifications to the system at this time may not
                     be value-added. However, we continue to urge management to
                     ensure that these areas are fully addressed as part of PAGE
                     development and implementation. Management's response to
                     our report disclosed that many of the issues identified with
                     WinSAGA would be addressed in PAGE. We will review
                     management's actions as they relate to PAGE as part of an
                     ongoing review.

                     In response to management's comment regarding the required
                     level of annual contingency plan testing, we noted, and
                     Department officials confirmed, that the Energy PCSP required
                     moderate systems to undergo functional exercises that are more
                     extensive than tabletop testing and directed that an event that
                     would require activation of the contingency plan be simulated.

                     We also noted that management's decision to limit the scope of
                     system certification testing reduced the security boundary of
                     the system to encompass only the Headquarters aspect of the
                     system. In this case, we would have expected that this
                     limitation be documented in the system security plan and



___________________________________________________________________
Page 9                                                    Comments
                     addressed as a residual risk to be considered by the Designated
                     Approving Authority when granting the system authority to
                     operate.

                     We agree that the Energy PSCP had not been issued at the time
                     the WinSAGA system security plan was updated in 2007. In
                     this case, EERE should have documented and implemented the
                     controls required by NIST Special Publication 800-53 for a
                     moderate system. Our comparison of NIST guidance with the
                     system security plan verified that there were 34 controls or
                     control enhancements that were not addressed – accounting for
                     16 percent of the required controls and enhancements.
                     Although we found that several controls documented in the
                     security plan were labeled as being not applicable to the
                     WinSAGA environment, those controls were not included in
                     the calculations noted in our report.




___________________________________________________________________
Page 10                                                   Comments
Appendix 1

OBJECTIVE              To determine whether current system resources were adequate
                       to handle the increased activity resulting from the American
                       Recovery and Reinvestment Act of 2009 (Recovery Act), and
                       whether the necessary controls for ensuring the accuracy,
                       integrity, and completeness of information had been
                       implemented and were operating as intended.

SCOPE                  The audit was performed between May 2009 and January 2010
                       at Department of Energy (Department) Headquarters in
                       Washington, DC.

METHODOLOGY            To accomplish the audit objective, we:

                                Reviewed applicable laws and Department directives,
                                including those pertaining to grants management
                                under the Recovery Act;

                                Reviewed applicable standards and guidance issued
                                by the Office of Management and Budget related to
                                accounting and reporting requirements of the
                                Recovery Act;

                                Reviewed prior reports by the Office of Inspector
                                General and the Government Accountability Office;

                                Obtained documentation from and held discussions
                                with officials from the Department's Office of Energy
                                Efficiency and Renewable Energy and contractor
                                personnel relating to system security and controls,
                                and system capability, changes, and use for Recovery
                                Act purposes; and,

                                Analyzed documentation to determine whether
                                selected system controls were in place and operating
                                as intended.

                       We conducted this performance audit in accordance with
                       generally accepted Government auditing standards. Those
                       standards require that we plan and perform the audit to obtain
                       sufficient, appropriate evidence to provide a reasonable basis
                       for our findings and conclusions based on our audit objectives.
                       We believe that the evidence obtained provides a reasonable
                       basis for our finding and conclusions based on our audit
                       objectives. Accordingly, we assessed significant internal
                       controls and the Office of Energy Efficiency and Renewable
                       Energy's implementation of the Government Performance and

___________________________________________________________________
Page 11                                Objective, Scope, and Methodology
Appendix 1 (continued)

                       Results Act of 1993 and determined that it had established
                       performance measures for management and operation of its
                       grant management systems. Because our review was limited, it
                       would not have necessarily disclosed all internal control
                       deficiencies that may have existed at the time of our
                       evaluation. We did not rely on computer-processed data to
                       satisfy our objectives.

                       An exit conference was held with Department officials on
                       March 25, 2010.




___________________________________________________________________
Page 12                                Objective, Scope, and Methodology
Appendix 2

                                 RELATED REPORTS


  Audit Report on "Department of Energy's Efforts to Meet Accountability and
  Performance Reporting Objectives of the American Recovery and Reinvestment Act"
  (OAS-RA-09-04, September 2009). We found that the Department of Energy's
  (Department) efforts to develop, refine, and apply the control structure needed to ensure
  accurate, timely, and reliable reporting to be both proactive and positive. We did,
  however, identify certain issues relating to American Recovery and Reinvestment Act of
  2009 (Recovery Act) performance management, accounting and reporting accuracy, and
  timeliness that should be addressed and resolved. In particular, Program officials had not
  yet determined whether existing information systems will be able to process anticipated
  transaction increases associated with the Recovery Act and there was a lack of
  coordination between Headquarters organizations related to aspects of Recovery Act
  reporting. The need to report accurate and complete information to the public and the
  Office of Management and Budget (OMB) is a Recovery Act imperative. We are
  concerned that the Department's information systems supporting Recovery Act activities
  may be unable to handle significant increases in workload or provide appropriate
  mechanisms to ensure that funds are accurately tracked and reported.

  Audit Report on "Protection of the Department of Energy's Unclassified Sensitive
  Electronic Information" (DOE/IG-0818, August 2009). Our review identified
  opportunities to strengthen the protection of all types of sensitive unclassified electronic
  information and reduce the risk that such data could fall into the hands of individuals
  with malicious intent. In particular, sites had either not ensured that sensitive information
  maintained on mobile devices was encrypted or they had improperly permitted sensitive
  unclassified information to be transmitted unencrypted through email or to offsite backup
  storage facilities; had not ensured that laptops taken on foreign travel were protected
  against security threats; and were still working to complete Privacy Impact Assessments.
  Our testing revealed that the weaknesses identified were attributable, at least in part, to
  Headquarters programs and field sites that had not implemented existing policies and
  procedures requiring protection of sensitive electronic information. As demonstrated by
  previous computer intrusion-related data losses throughout the Department, without
  improvements, the risk or vulnerability for future losses remains unacceptably high.

  Special Report on "The American Recovery and Reinvestment Act at the Department of
  Energy" (OAS-RA-09-01, March 2009). The report identified specific risks that were
  discovered during past reviews and investigations in areas such as fund accounting and
  reporting, grants and cooperative agreements, contract management, and loan guarantees.
  While the use of grants and cooperative agreements can be an effective way to fund
  various initiatives, these types of financial assistance tools also carry a number of
  demonstrated risks. Our reviews have also established that program officials did not
  always take action to mitigate performance-related risks through effective monitoring of
  grants and cooperative agreements. To prepare for the vast increase in projects funded
  through grants and cooperative agreements, and to address the risks we have previously
  identified, the Department should take steps to: develop aggressive safeguards to ensure
  that financial and business risks are adequately assessed and addressed prior to initial
___________________________________________________________________
Page 13                                               Related Reports
Appendix 2 (continued)

  award; monitor performance throughout the life-cycle of the grant or cooperative
  agreement; and adjust project management techniques to ensure the transparency of
  project data and ensure that specific OMB and Recovery Act monitoring and reporting
  requirements are met. Controls such as these are essential to ensuring that the massive
  surge in funds to be distributed through grants and cooperative agreements is adequately
  controlled and monitored. Based on current plans, these funding mechanisms are to form
  a significant part of Recovery Act outlays and are therefore likely to be critical to
  achieving desired economic stimulus.

  Evaluation Report on "The Department's Unclassified Cyber Security Program - 2008"
  (DOE/IG-0801, September 2008). We found that while the Department continues to
  make incremental improvements in its unclassified cyber security program, certain
  problems persisted such as issues with system certification and accreditation and
  contingency planning. These internal control weaknesses existed, at least in part, because
  not all Department program organizations, including the National Nuclear Security
  Administration, had revised and implemented policies incorporating Federal and
  Departmental cyber security requirements in a timely manner. Program officials had also
  not effectively performed management review activities essential for evaluating the
  adequacy of cyber security performance. Consequently, the risk of compromise to the
  Department's information systems remained higher than necessary with additional action
  needed to reduce this risk.

  Audit Report on "Management of the Department's Publicly Accessible Websites"
  (DOE/IG-0789, March 2008). Our audit identified several opportunities to improve the
  security and management of the Department's publicly accessible websites. Specifically,
  we identified numerous significant cyber security incidents, which, in our judgment,
  could have been prevented had proper security controls been in place; content on publicly
  accessible web servers was not always controlled and reviewed periodically; and most of
  the organizations reviewed also had not incorporated contingency/emergency planning
  features, provided accessibility for individuals with disabilities, and/or disabled unneeded
  computer services for their publicly accessible websites. We concluded that the risk that
  the Department's publicly accessible websites and the data they contained could be
  compromised was higher than acceptable. A lack of guidance from Headquarters and
  deficiencies in site-level management and control contributed to an unnecessarily risky
  security posture and publicly accessible websites that did not meet Federal accessibility
  requirements or contingency planning and emergency response best practices.




___________________________________________________________________
Page 14                                               Related Reports
MEMORANDUM FOR:                 RICKEY R. HASS
                                DEPUTY INSPECTOR GENERAL FOR
                                 AUDIT SERVICES
                                OFFICE OF INSPECTOR GENERAL

FROM:                           KATHLEEN B. HOGAN(NO SIGNATURE-508 VERSION)
                                DEPUTY ASSISTANT SECRETARY
                                 FOR ENERGY EFFICIENCY
                                OFFICE OF TECHNOLOGY DEVELOPMENT
                                ENERGY EFFICIENCY AND RENEWABLE ENERGY

SUBJECT:                        Comments to the Office of Inspector General Draft Report on the
                                Audit of “Management Controls over the Department’s WinSAGA
                                System for Energy Grants Management Under the Recovery Act”

The Department of Energy (DOE) Office of Energy Efficiency and Renewable Energy (EERE)
appreciates the opportunity to review and comment on the results of the Audit performed on the
Management Controls over the Department’s WinSAGA System for Energy Grants Management under
the Recovery Act. WinSAGA is a system that has been in production since January 1999 with zero (0)
identified or reported incidents of data compromise and no significant events of unscheduled system
unavailability. As noted in the report, WinSAGA is scheduled to be retired in June 2010. The report
indicates that the WinSAGA functionality was initially planned for a June 2009 implementation in
PAGE; however, the WinSAGA functionality to be migrated over to PAGE was originally scheduled for
a December 2009 implementation. In June 2010, EERE is planning on decommissioning the WinSAGA
system, which will be replaced by the Performance and Accountability for Grants in Energy (PAGE)
system. The PAGE system is a web-based system with similar functionality and data as WinSAGA.
PAGE and WinSAGA have some overlaps when it comes to the managerial controls, notably the
personnel managing the system and certain policies and procedures; however, the technical architecture of
this system is entirely different from WinSAGA. The PAGE system has been built to be in compliance
with Department of Energy regulatory guidance, while also ensuring that the weaknesses noted within the
Draft Report on the Audit of “Management Controls over the Department’s WinSAGA System for
Energy Grants Management Under the Recovery Act” are proactively addressed so that the system will be
in compliance with all prescribed Federal and Departmental directives.

The Audit contains three (3) recommendations that its authors believe are necessary to ensure the
effective and secure management of the Department’s energy grant management applications.

First, the Audit recommends that “Responsibility [be] assigned to an appropriate individual to ensure that
cyber security policies and practices are properly communicated to the ISSO [Information System
Security Officer] and state-level program officers in accordance with Federal and Departmental
requirements for WinSAGA and its successor system, PAGE.” In response, we note that, due to a lack of
resources, the EERE Cyber Security Program Manager lacks sufficient staffing to ensure separation of
duties within the Cyber Security Program (CSP). While not ideal, the limited scale of the Cyber Security
Program allows it to operate without the recommended segregation of duties and the principle of least
privilege implemented. Additionally, although the report states that access reviews are not performed
regularly and inactive accounts are not deleted, internal IV&V testing verified that all users from all user
groups (HQ, PMC, and states) that have not logged in to the WinSAGA application within 183 days, will
be prevented from accessing the application. For the PAGE system, EERE will look to establish greater
depth of resources within the Cyber Security Program so that the EERE Cyber Security Program Manager
is not the only official assigned responsibility for security over the program’s systems. This will allow
the CSP to meet both organizational changes and pending growth challenges improving program
efficiency, overall communication between program stakeholders, and general collaboration.

Second, the Audit recommends that “Corrective actions taken to address security weaknesses [be]
appropriately tracked and validated prior to closing POA&M (Plan of Action and Milestones) items.” In
response, we note that, as a result of IG’s suggestion, EERE will be designing and implementing a new
POA&M Milestone/Weakness Verification process for all Headquarters systems, including WinSAGA
and PAGE. EERE will have an independent verifier, review and physically verify the corrective action
taken for each milestone and weakness for all Headquarter systems, prior to them being updated as
“Verified” within the POA&M. This will ensure that no WinSAGA or PAGE POA&M items are closed
as remediated and in place without the corrective action actually being thoroughly performed on each
respective system.

Finally, the Audit recommends that “Existing weaknesses in WinSAGA [be] resolved to the extent
practical and appropriate bases on the system’s anticipated retirement date.” In response, we note that
WinSAGA’s distributed architecture has been a concern for the past several years. Due to a lack of
resources for conducting testing at the 70+ state offices and since WinSAGA has been scheduled for
decommissioning for a number of years, EERE has made the decision to limit the scope of the
Certification &Accreditation (C&A) process and other systems improvement processes, and to not allow
their scope to expand beyond a manageable effort for a system with a limited life expectancy. Instead, the
WinSAGA support team has focused on critical updates, for instance by reducing the number of
WinSAGA users by removing inactive accounts along with decreasing the access rights of various users
who were deemed to not be in compliance with the principle of least privilege. WinSAGA is set to be
decommissioned in June 2010 and proper security controls will be implemented on the PAGE system.

The PAGE system is a web-based system that will not have a distributed environment with servers across
the country. Therefore, the PAGE C&A and respective System Security Plan encompasses all
components of the system and accreditation boundary.

Our specific comments on your findings are given in the attachment.

Attachment
      Department of Energy Response to Office of Inspector General Draft Audit Report
                                             on
  Management Controls over the Department’s WinSAGA System for Energy Grants Management
                                   Under the Recovery Act

                                      OIG FINDINGS

                                 System Access
Finding #1              The draft report states that “….more than 40 of 70 state-level
                        program offices reviewed granted the highest level of available
                        access privileges. Within these offices, we determined that almost
                        half of the active users had been assigned such privileges to the
                        system’s primary modules.”

Management’s Response   Concur
Departmental Response   When the WinSAGA support team was informed of this initial draft
                        in late November 2009, they proactively began a review of
                        WinSAGA user access levels for sites where all users had full
                        access to the grant and state application modules. The WinSAGA
                        support team reduced the number of WinSAGA users by removing
                        inactive accounts along with decreasing the access rights of various
                        users who were deemed to not be in compliance with the principle
                        of least privilege. In addition to user access levels, there are
                        WinSAGA edits based on business rules that prevent users from
                        updating or deleting information under pre-defined conditions.
                        Moreover, WinSAGA record ownership prevents any changes from
                        being made by a State office to data when DOE has ownership.

                        Moving forward for the PAGE system, Grantee users will be
                        required to acknowledge acceptance of the PAGE Rules of
                        Behavior document, which discusses the principle of least privilege.
                        Additionally, the Local System Administrator for each grant will be
                        provided Access Control Management procedures which provide
                        explicit instructions for account creation to ensure that specific
                        roles are segregated to ensure the principle of least privilege.
                        Lastly, the PAGE support team is currently evaluating application-
                        level configuration changes to limit local system administrator
                        accounts.

Finding #2              The draft report states that “The password change configuration
                        process for WinSAGA was insufficient for a moderate risk system.
                        In particular, although the Energy Program Cyber Security Plan
                        (PCSP) required user account passwords to be changed at least
                        every six months, the WinSAGA system security plan only required
                        passwords to be changed after 500 logins.”
Management’s Response   Concur
Departmental Response   The WinSAGA application forces a password reset after 183 days.
                        The PAGE application will force all users to change their
                        passwords after 180 days, which is equivalent to six (6) months and
                        in compliance with the minimum requirements stated in the
                        governing policy, the DOE Under Secretary of Energy Program
                        Cyber Security Plan (PCSP) v 1.2.

Finding #3              The draft report states that “….Specifically, in 2007, EERE
                        management directed that a configuration change be made to
                        enforce complexity requirements for passwords associated with
                        WinSAGA user accounts. This change was made to the
                        Headquarters’ servers via settings within the operating
                        systems…..however; the change for enforcing authentication
                        requirements through the application was not validated on the
                        servers at the state level.”
Management’s Response   Concur
Departmental Response   The WinSAGA support team verified that State users are required
                        to have a password with a least 8 characters, with a combination of
                        letters and numbers, and at least one special character. EERE
                        acknowledges that password complexity requirements should be
                        enforced consistently across all WinSAGA platforms, including
                        DOE and states.

                        PAGE is a web-based application with centralized password
                        management. The PAGE application’s password complexity is in
                        compliance with the DOE Under Secretary of Energy PCSP v 1.2,
                        PWM-50, page 89, as follows:

                                (a) Passwords contain at least eight non-blank
                                characters.
                                (b) Passwords contain a combination of letters, numbers,
                                and at least one special character within the first seven
                                positions.
                                (c) Passwords contain a nonnumeric in the first and last
                                position.
                                (d) Passwords do not contain the user ID.
                                (e) Passwords do not contain any common English
                                dictionary word, spelled forward or backwards (except
                                words of three or fewer characters).
                                (f) Passwords do not employ common names.
                                (g) Passwords do not contain commonly used numbers
                                associated with the user of the password.
                                (h) Passwords do not contain any simple pattern of letters
                                or numbers.


                        System Backup and Recovery
Finding #4              The draft report states that, “….appropriate system backup and
                        recovery procedures had not been implemented for
                        WinSAGA…..Although the backups should have been moved from
                        the system and secured in a timely manner, we noted that the files
                        were retained on the system for an extended period before being
                        moved to a portable device and stored at the system administrator’s
                        residence.”
Management’s Response   Concur
Departmental Response   WinSAGA differential backups are performed nightly with a full
                        backup performed on a weekly basis. On a weekly basis, backups
                        are rotated off-site to a bank vault at the SunTrust Bank in
                        Gaithersburg, MD. Therefore, backups are moved from the system
                        and secured in a timely manner.

                        For the PAGE system, system level and data backups will be
                        conducted on a daily basis by the EERE IT Department. Full back-
                        ups will be performed every weekend and differential back-ups will
                        be performed nightly. Backup tapes will be secured in a locked
                        cabinet while onsite at Forrestal. Access to the locked cabinet is
                        limited to system administrators. EERE also has an arrangement
                        with Iron Mountain for offsite storage of backup tapes in
                        Richmond, VA, which is approximately 100 miles from the
                        production location. Additionally, EERE is currently developing a
                        plan for an alternate processing site at NETL. When finalized,
                        production data will be replicated to the Disaster Recovery Servers
                        located in Morgantown, WV in real-time.

Finding #5              The draft report states that, “In addition, annual testing of
                        WinSAGA’s contingency plan did not ensure the timely recovery of
                        information and system operations in the case of service disruption.
                        Contrary to program-level direction, the contingency plan and the
                        methodology utilized in the plan testing for Fiscal Year 2008
                        disclosed that a live recovery was not performed.”
Management’s Response   Non-Concur
Departmental Response   Per the 2007 WinSAGA Certification & Accreditation (C&A), the
                        system was rated as a “Moderate” system. Per the DOE Under
                        Secretary of Energy Program Cyber Security Plan (PCSP) v 1.2,
                        moderate systems are only required to perform a Tabletop Exercise
                        on an annual basis for the testing of their respective Information
                        Technology Contingency Plans (ITCPs). Additionally, during the
                        ITCP testing it was noted that the exact process that would be
                        followed to reconstitute WinSAGA in the event of a disaster at
                        Headquarters would be performed from a different location if the
                        system were to go down at one of the state sites.

                        The PAGE ITCP will perform a tabletop exercise on an annual
                        basis, per the requirements outlined in the DOE Under Secretary of
                        Energy PCSP v 1.2.

Finding #6              The draft report states that, “….In addition, eight weaknesses
                        identified as a result of testing in July 2008 were not included in the
                        POA&M to ensure that they could be effectively tracked and
                        resolved.”
Management’s Response   Concur
Departmental Response   The eight (8) weaknesses identified during the WinSAGA testing in
                        July 2008 had been previously put on a POA&M and were closed.
                        However, these items mistakenly showed up on the WinSAGA
                        ITCP Testing – After Action Report and were mistakenly never
                        removed from the report. Therefore, it was noted by the OIG that
                        weaknesses noted during ITCP testing were never included onto a
                        POA&M for tracking purposes. Moving forward, all contingency
                        plans testing for WinSAGA will include an After-Action report
                        where all weaknesses and areas of non-compliance identified are to
                        be immediately placed on a POA&M to ensure they can be
                        effectively tracked and resolved.

                        For the PAGE system, ITCP testing will be conducted on an annual
                        basis. Upon completion of the ITCP testing an After-Action report
                        will be generated documenting all weaknesses and areas of non-
                        compliance. Lastly, all weaknesses and areas of non-compliance
                        identified are to be immediately placed on a POA&M to ensure
                        they can be effectively tracked and resolved.


                   Security Documentation and Testing
Finding #7              The draft report states that, “Security planning documentation and
                        control testing for WinSAGA was incomplete and contained several
                        inconsistencies. For example, the system security plan was not
                        representative of the entire computing environment – only including
                        the main Headquarters servers and excluding the servers used by
                        the 70 state-level program offices”
Management’s Response   Concur
Departmental Response   WinSAGA’s distributed architecture has been a concern for the past
                        several years and a decision was made in order to have a
                        manageable project scope for the initial C&A effort in 2004. Due
                        to a lack of resources for conducting testing at the 70+ state offices
                        and since WinSAGA has been scheduled to be decommissioned for
                        a number of years the decision was made to limit the scope of the
                        C&A process, and to not allow the scope to expand beyond a
                        manageable effort for a system with a limited life expectancy.
                        WinSAGA plans to be decommissioned in June 2010 and proper
                        security controls will be implemented on the PAGE system.

                        The PAGE system is a web-based system that will not have a
                        distributed environment with servers across the country. Therefore,
                        the PAGE C&A and respective System Security Plan encompasses
                        all components of the system and accreditation boundary.

Finding #8              The draft report states that, “Even when testing was completed at
                        Headquarters, we found that it excluded 16 percent of the security
                        controls and control enhancements that are required by NIST for a
                        moderate risk system.”
Management’s Response   Concur
Departmental Response   The WinSAGA C&A was completed in 2007, which was prior to
                        the completion of the DOE Under Secretary of Energy Program
                        Cyber Security Plan (PCSP) and its respective Appendix A, which
                        documents the Office of the Under Secretary of Energy Minimum
                        System Security Requirements for Unclassified Systems.
                        Therefore, when reviewing the 2007 C&A package and respective
                        System Security Plan (SSP), one must note that many requirements
                        are not covered within the original package due to the fact that the
                        DOE Under Secretary PCSP was not yet created. Additionally, a
                        majority of the excluded security controls are identified in the
                        System Security Plan as ‘Not Applicable’, and an explanation was
                        provided for each. Most of the excluded items were related to
                        software development or technologies that are not related to
                        supporting WinSAGA. At the time of the C&A, there was no
                        development work allowed for WinSAGA.

                        For the PAGE system, the C&A package and respective SSP were
                        created using DOE Under Secretary of Energy PCSP v 1.2, which
                        was the most up-to-date version of the PCSP at the time of
                        accreditation. Updates will be made to the C&A package security
                        documentation annually and will utilize current DOE and other
                        Federal guidance as the regulations for the review.


                 Communication of Security Requirements
Finding #9              The draft report states that, “EERE Officials had not ensured that
                        responsibility was assigned for communicating all cyber security
                        requirements to the Information System Security Officer (ISSO) –
                        the individual responsible for ensuring security of the information
                        system – and system users. Specifically, the EERE Cyber Security
                        Program Manager was the only official assigned responsibility for
                        security over the program’s systems…..Our review found that no
                        one within EERE had been assigned the responsibility of ensuring
                        that system specific requirements were properly communicated to
                        the system ISSO”
Management’s Response   Concur
Departmental Response   Due to a lack of resources, the EERE Cyber Security Program
                        Manager lacks sufficient staffing to ensure separation of duties
                        within the Cyber Security Program (CSP). While not ideal, the
                        limited scale of the Cyber Security Program allows it to operate
                        without the recommended segregation of duties and the principle of
                        least privilege implemented. Additionally, although the report
                        states that access reviews are not performed regularly and inactive
                        accounts are not deleted, internal IV&V testing verified that all
                        users from all user groups (HQ, PMC, and states) that have not
                        logged in to the WinSAGA application within 183 days, will be
                        prevented from accessing the application.

                        For the PAGE system, EERE will look to establish greater depth of
                        resources within the Cyber Security Program so that the EERE
                        Cyber Security Program Manager is not the only official assigned
                        responsibility for security over the program’s systems. This will
                        allow the CSP to meet both organizational changes and pending
                        growth challenges improving program efficiency, overall
                        communication between program stakeholders, and general
                        collaboration.

Finding #10             The draft report states that, “We also noted that the method and
                        approach used to validate corrective actions taken to close POA&M
                        items was not always effective. During our review, we observed
                        that security weaknesses existed even though the program reported
                        them as corrected and closed.”
Management’s Response   Concur
Departmental Response   The report provided by the OIG contains two (2) examples of
                        POA&M milestones that were reported as corrected and closed,
                        while the weaknesses still existed, which were as follows:
                             • Password configuration and complexity: Password settings
                                were changed when the POA&M milestone was closed;
                                however when the change was made, the WinSAGA
                                support team erroneously assumed that the change affected
                                all new and existing user accounts. Previously existing
                                accounts were recently reviewed, and all PMC and State
                                user accounts now have the same level of complexity
                                requirements.
                             • Appropriate storage of backups for WinSAGA: As
                                previously noted, the POA&M issue was that the off-site
                                storage location in Rockville was too close in proximity to
                                the Gaithersburg office location. This was addressed by
                                rotating off-site backups to two sites: one in Baltimore, and
                                one in Rockville. This is a temporary solution until the
                                EERE COOP is implemented.

                        As a result of IG’s suggestion, EERE will be designing and
                        implementing a new POA&M Milestone/Weakness Verification
                        process for all Headquarters systems, including WinSAGA and
                        PAGE. EERE will have an independent verifier, review and
                        physically verify the corrective action taken for each milestone and
                        weakness for all Headquarter systems, prior to them being updated
                        as “Verified” within the POA&M. This will ensure that no
                        WinSAGA or PAGE POA&M items are closed as remediated and
                        in place without the corrective action actually being thoroughly
                        performed on each respective system.
                                                          IG Report No. OAS-RA-10-05

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:
                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
